DOE F 1325.8
(08-93)                                                                                     Department of Energy
United States Government


Memorandum
          DATE:      January 26, 2007                              Audit Report Number: OAS-L-07-05
     REPLY TO
      ATTN OF:       IG-34 (A06GT035)

      SUBJECT:       Report on "The Department of Energy's Implementation of Revised OMB
                     Circular No. A-123"
               TO:   Acting Chief Financial Officer, CF-1


                     INTRODUCTION AND OBJECTIVE

                     The Office of Management arid Budget's (OMB) revised Circular No. A-123
                     (Circular) requires Federal agencies to assess the adequacy of their internal
                     controls. Beginning in Fiscal Year (FY) 2006, the Circular requires agencies to
                     strengthen their assessment, documentation and testing of internal controls over
                     financial reporting and prepare an annual assurance statement on the operating
                     effectiveness of those controls. In August 2005, the Department of Energy's
                     (Department) Office of Chief Financial Officer (CFO) began efforts to implement
                     the Circular.

                     Concurrent with its FY 2006 implementation tasks, the Department was engaged
                     in an effort to correct a material weakness in its financild management and
                     reporting process. Given the resources required for that effort, the Office of CFO
                     determined that the Circular would be implemented, beginning in FY 2006, using
                     a three year phased approach. In the first phase of its implementation, the
                     Department concentrated its efforts on assessing processes and controls with the
                     potential for the greatest impact on the financial statement audit. OMB guidance
                     permits such a phased approach, provided a scope limitation is reported and a
                     qualified or statement of no assurance as to the effectiveness of the internal
                     controls is issued. Given the importance of this effort, we initiated this review, to
                     determine whether the Department had properly implemented the requirements
                     established in the Circular.

                     CONCLUSION AND OBSERVATIONS

                     Overall we concluded that the first phase of the Department's evaluation of
                     internal controls over financial reporting as of June 30, 2006, was carried out in a
                     reasonable manner and generally conformed to requirements established by OMB.
                     The Department properly reported the limited scope of its internal control
                     assessment and qualified its assurance statement on the: effectiveness of its
                     controls. We identified, however, certain issues that, ii' not corrected, could
                                                                                we
impact the Department's ability to fully implement the Circular. In particular,
noted that:

    *   Risk assessments were not always prepared in accordance with
        Department guidance; and,

    *   Supporting documentation describing certain controls and the results of
        testing had not been prepared or was not readily available.

                              Progress This Fiscal Year

The Department made substantial progress in implementing the requirements in
the Circular during FY 2006. The Department established a Senior Assessment
Team and organized a Senior Management Council at Headquarters to provide
corporate governance and oversight. A Project Management Team was also
established to manage the implementation of the program. The Department also
established Site Assessment Teams to assess, document and test controls at the
site, program and facility level. It also identified materiality levels and the major
accounts targeted for assessment: developed and communicated requirements to
Site Assessment Teams, and deployed the Assessment and Reporting Tool
(AART) for tracking the efforts at the program and site office level.

                           Completing Risk Assessment'!

The Department's A-123 implementation guidance developed by the Office of
CFO identified 19 standard financial processes to be used during the FY 2006
internal control assessment effort. Using these standard processes, sites and
program offices identified specific sub-processes - based on local operating
procedures - on which to assess risk. Sites and program offices were to then
identify one or more "inherent" risks associated with each sub-process and, as
appropriate, assess each of the risks as high, moderate, or low. A basic
assumption to be applied when determining "inherent risk" was that there was no
consideration of the related or offsetting internal controls that may be in place to
prevent or detect errors.

Based on an evaluation of a sample of assessments, completed by selected sites
and programs, we determined that certain risk assessments were not performed in
accordance with Departmental guidance. Specifically, the Office of Energy
Efficiency and Renewable Energy incorrectly assessed "control" risk - the risk
that the existing internal controls would not be effective - rather than inherent
risk. While the Lawrence Livermore National Laboratory and'Sandia National
Laboratory properly identified one or more risks for each of their sub-processes,
they did not assess each of the identified risks. Instead, they assessed the
combined risk associated with a sub-process. A National Nuclear Security
Administration (NNSA) official told us that they made a judgment to be more
conservative in assessing risk at these two sites and that combining sub-processes
resulted in more risk sets rated as high. The downstream effect of rating areas
higher than necessary, however, is that unnecessary and costly controls may be
put into place.

                                          2
                                                                                 with
In responding to our report, the Department's A-123 Project Manager agreed
our observation that certain risk assessments did not comply with Department
                                                                       its guidance
guidance. He added that the Department is considering a change to
that would factor certain aspects of control risk into the risk assessment process.

                               Documenting Results

As noted by the Circular, internal controls and the results of testing should be
adequately documented. OMB emphasizes that documents describing controls
and supporting testing should be readily available for use or review. As specified
in the Department's implementation guidance, site and program offices were to
use the AART to, among other things, list the locations of specific documentation
to support their assessment and testing efforts.

We found, however, that adequate supporting documentation had not alvays been
prepared or was not readily available at the location described in the AART. For
example, documentation to support testing of eight entity controls by the NNSA
was not descriptive of the tests performed. Instead, it consisted of a single page of
notes in bullet format from a discussion with an individual at Headquarters. Many
of the bullets did not clearly describe the test results. At the Pacific Northwest
National Laboratory (PNNL), more specific location descriptions were also
needed. In particular, references to document locations were sometimes not
specific, such as those that referred to documents of significant size - an
Accounting Manual - rather than the specific control in question.

In responding to our report, an official from NNSA told us that many documents
describing entity controls were inspected and that these documents were provided
to our auditors. The documents provided, however, described the controls NNSA
evaluated rather than the results of tests of these controls. According to the
NNSA official, the only testing performed on the documents consisted of a single
inquiry of an individual at Headquarters. Additionally, when we discussed the
need for specific document locations with PNNL officials, they took action to add
greater specificity in the AART.

Implementation and Monitoring

Overall, we concluded that the issues described above could impact the
Department's implementation efforts. To its credit, the. Office of CFO's Project
Management Team has since provided additional training on risk assessment,
documenting, evaluating and testing. These actions are positive steps that should,
if properly implemented, help strengthen the Department's internal control
assessment and testing process.




                                           3
SUGGESTED ACTIONS

To address the issues outlined in our report, we suggested that the Office of Chief
Financial Officer:

      1. Determine whether additional clarifying guidance is needed and whether
         additional training on the preparation of risk assessments and supporting
         documentation is necessary; and,
      2. Require sites or programs to revise their risk assessments and
         documentation as necessary to correct issues discovered during our
         review.

No formal recommendations are being made in this report, and a formal response
is not required. We appreciate the cooperation of the various Departmental
elements that provided information or assistance.




                                       Rickey R. Hass
                                       Assistant Inspector General
                                         for Financial, Technology, and Corporate Audits
                                       Office of Audit Services
                                       Office of Inspector General

Attachment

cc:       Chief of Staff
          Deputy Secretary
          Administrator, National Nuclear Security Administration




                                           4
                                                                               Attachment


SCOPE AND METHODOLOGY
                                                                             No. A-123,
We examined the Department's implementation of the Revised OMB Circular
                                                              controls. The evaluation
Appendix A, regarding evaluation of and reporting on internal
was performed between July 2006 and January 2007.
                                                                           Financial
We conducted interviews of officials in the Headquarters Office of Chief
                                                                         revised
Officer who were responsible for implementation and monitoring of the
                                                               Office, the Pacific
requirements; undertook site visits to the Richland Operations                  Service
Northwest National Laboratory, the National Nuclear Security Administration
                                                           National Laboratory,   and
Center, Sandia National Laboratory, Lawrence Livermore
                                                                                     and
Argonne National Laboratory; conducted work at the Offices of Energy Efficiency
Renewable Energy, and Science; and reviewed internal control, test, and remediation
                                                                                      as it
documentation. We assessed the FY 2006 Performance and Accountability Report
relates to OMB Circular No. A-123 to determine whether the results of site and program
 office evaluations were accurately reported. Also, we performed work to determine
 whether the Department developed corrective action plans for significant issues identified
 during its FY 2006 reporting process.

Our review was made in accordance with generally accepted Government auditing.
standards and included tests of internal controls and compliance with laws and
                                                                            we assessed
regulations to the extent necessary to satisfy our objective. Accordingly,
internal controls related to the implementation procesis. Because our review was limited,
it would not necessarily have disclosed all internal control deficiencies that may have
existed at the time of our evaluation. We did not rely on computer-processed data to
 accomplish our audit objective.
